No.
IN THE

Oupreure Court of tbe

niteb 'rate'i

K. WENDELL LEWIS, ET AL.,
Petitioners,
V.
PENSION BENEFIT GUARANTY CORPORATION,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

CERTIFICATE OF SERVICE
I, Anthony F. Shelley, a member of the Bar of this Court, hereby certify that,
on June 30, 2021, I caused three copies of the PETITION FOR A WRIT OF
CERTIORARI in this case to be served by first-class mail, postage prepaid, on
counsel of record for each respondent in this case as set forth below. I also caused
an electronic copy of the brief in PDF format to be served on counsel of record for
each party in this case. I further certify that all persons required to be served have
been served.

Joseph M. Krettek
Paula J. Connelly
Mark R. Snyder
Pension Benefit Guaranty Corporation
Office of the Chief Counsel
1200 K Street, NW
Washington, DC 20005-4026
Tel: 202-326-4020
krettek.joseph@pbgc.gov,
connellv•paula@pbec.gov,
snyder.mark@pbgc.gov, efile@pbgc.gov

Elizabeth Prelogar
Acting Solicitor General
United States Dep't of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
Tel.: 202-514-2217
SupremeCtBriefs@usdoj.gov

Anthony F. Shelley
Miller & Chevalier Chartered
900 Sixteenth St. NW
Black Lives Matter Plaza
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashellev@milchev.com
Counsel for Petitioners

2

